HHS/OIG-Audit--"Summary of Calendar Year 1992 Audit Activity at Colleges and Universities, (A-01-93-04004)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Summary of Calendar Year 1992 Audit Activity at Colleges and Universities," (A-01-93-04004)
September 10, 1993
Complete
Text of Report is available in PDF format (1.83 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides information prepared by the Office of Inspector General (OIG) of the Department of Health and
Human Services (HHS) summarizing our audit activity in the college and university area for Calendar Year (CY) 1992. During
CY 1992, the Federal Government allocated an estimated $10.5 billion to research universities. The HHS contributed $5.5
billion, or 52 percent, of the Federal total. During this same time period, the OIG and nonfederal auditors performed 679
audits in the college and university area. This resulted in Governmentwide findings totaling over $361.5 million. The primary
focus of our audit work was our continuing effort to ensure that only allowable and properly allocable costs are charged
to research and to continue to explore meaningful and effective reforms in cost reimbursement methods.